                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Quick Reaction Report:

                        EPA Did Not Properly Migrate
                        General Ledger Balances to
                        Compass From the Integrated
                        Financial Management System

                        Report No. 12-P-0559                    July 9, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                                 Paul Curtis
                                                     Meg Hiatt
                                                     Arthur Budelier
                                                     Gloria Taylor-Upshaw
                                                     Catherine Allen
                                                     Kelly Bonnette
                                                     Robert Hairston
                                                     Carol Kwok
                                                     Mairim Lopez
                                                     Claire McWilliams
                                                     Demetrios Papakonstantinou
                                                     Denise Patten
                                                     Robert Smith
                                                     Wendy Swan
                                                     Lynda Taylor




Abbreviations

EPA                    U.S. Environmental Protection Agency
FY                     Fiscal Year
GAO                    U.S. Government Accountability Office
GL                     General Ledger
IFMS                   Integrated Financial Management System
OCFO                   Office of the Chief Financial Officer
OIG                    Office of Inspector General
OMB                    Office of Management and Budget




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:       OIG_Hotline@epa.gov                        write:   EPA Inspector General Hotline
  phone:        1-888-546-8740                                      1200 Pennsylvania Avenue NW
  fax:          202-566-2599                                        Mailcode 2431T
  online:       http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-P-0559
                                                                                                          July 9, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review               EPA Did Not Properly Migrate General Ledger
The purpose of this audit was to
                                     Balances to Compass From the Integrated
determine whether the U.S.           Financial Management System
Environmental Protection Agency
(EPA) effectively managed the         What We Found
implementation of Compass so
that there is a clear cutoff         EPA did not properly migrate GL balances to Compass from IFMS. We found
between transactions entered in      differences in certain FY 2012 beginning balances, abnormal balances, and
the Integrated Financial             Agency adjustments to beginning balances. The Federal Managers’ Financial
Management System (IFMS) and         Integrity Act requires agencies to provide reasonable assurance that accounts
Compass Financials (Compass).        are properly recorded and accounted for to ensure reliability of financial
We also sought to determine          reporting. The errors we found are indicators of internal control and oversight
whether EPA properly migrated        weaknesses in the migration of balances.
financial data to Compass from
IFMS.                                The Agency stated that the differences were due to the mapping for vendor code
                                     information, trading partner designations, and corrections to budget entries.
Background                           These errors occurred because EPA did not properly review and populate
                                     vendor-type information and ensure proper oversight of the migration plan.
In October 2011, the EPA’s           The Agency did not provide detailed support for the beginning balances, the
Office of the Chief Financial        abnormal balances, or the adjustments to beginning balances, so we could not
Officer replaced IFMS with           fully determine the nature of the errors.
Compass—a new system. All
relevant reference and general       Because of the GL account differences and the lack of supporting details,
ledger (GL) data were to be          EPA cannot ensure the reliability of the FY 2012 balances used to generate the
migrated to Compass from IFMS.       financial statements. Without this reliance and proper support for balances, we
The conversion and migration         may not be able to render an unqualified opinion when we audit the FY 2012
strategies included the conversion   financial statements.
of the ending balances from
IFMS identified during the annual     Recommendations/Agency Corrective Actions
closing into the beginning
Compass balances for fiscal year     We recommend that the Chief Financial Officer determine whether the
(FY) 2012.                           supporting data elements in the beginning balances of the GL account and
                                     treasury symbol were properly migrated to Compass from IFMS; adjust the
                                     GL accounts with abnormal balances to include accurate activity and reflect the
For further information, contact
our Office of Congressional and
                                     proper balances; and correct the GL Crosswalk and provide the details to the
Public Affairs at (202) 566-2391.    EPA Office of Inspector General.

The full report is at:               We informed the Agency of issues identified in this report. The Agency stated it
www.epa.gov/oig/reports/2012/
20120709-12-P-0559.pdf
                                     has taken corrective actions and will provide supporting documentation. We
                                     will assess the Agency’s corrective actions during the FY 2012 financial
                                     statement audit.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                           July 9, 2012

MEMORANDUM

SUBJECT:	 EPA Did Not Properly Migrate General Ledger Balances to
          Compass From the Integrated Financial Management System
          Report No. 12-P-0559


FROM:          Arthur A. Elkins, Jr. 


TO:            Barbara J. Bennett 

               Chief Financial Officer


This is a quick reaction report on our review of the Fiscal Year 2012 General Ledger beginning
balances in Compass conducted by the Office of Inspector General (OIG) of the U.S.
Environmental Protection Agency (EPA). This report contains time critical issues needing your
attention. This report represents the opinion of the OIG and does not necessarily represent the
final EPA position. Final determinations on matters in this report will be made by EPA managers
in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, please provide a written response to this report within
30 calendar days. You should include a corrective action plan for agreed-upon actions, including
milestone dates. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig/.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Paul Curtis, Product Line Director for Financial Statement Audits, at (202) 566-2523 or
curtis.paul@epa.gov.
EPA Did Not Properly Migrate General Ledger Balances to                                                                           12-P-0559
Compass From the Integrated Financial Management System




                                      Table of Contents 

   Purpose........................................................................................................................       1


   Background .................................................................................................................          1


   Scope and Methodology.............................................................................................                    2


   Results of Review .......................................................................................................             3


           Criteria..................................................................................................................    3

           Differences Between FY 2011 Ending Balances and FY 2012 

               Beginning Balances........................................................................................                5

           Differences Between FY 2011 Ending Balances and FY 2012 

               Beginning Balances at the Treasury Symbol Level ........................................                                  5

           Abnormal Balances ..............................................................................................              6    

           Beginning Balance Adjustments...........................................................................                      6

           General Ledger Crosswalk Errors ........................................................................                      7


   Conclusion...................................................................................................................         7


   Recommendations ......................................................................................................                8


   Agency Corrective Actions ........................................................................................                    8


   Status of Recommendations and Potential Monetary Benefits..............................                                               9




Appendices
   A       Details on Scope and Methodology..................................................................                           10


   B       Differences Between FY 2011 Ending Balances and FY 2012 

           Beginning Balances ...........................................................................................               12


   C       Differences Between FY 2011 Ending Balances and FY 2012 

           Beginning Balances at the Treasury Symbol Level .......................................                                      14


   D       Abnormal Beginning Balances in Compass....................................................                                   21


   E       Beginning Balance Adjustments Due to Migration, Mapping Errors, 

           and Budget Corrections ....................................................................................                  22


   F       General Ledger Crosswalk Errors ...................................................................                          23


   G       Effect on Audit of Data Requests Not Received..............................................                                  24


   H       Distribution .........................................................................................................       25

Purpose
            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency (EPA):

               	 Effectively managed the implementation of Compass so there is a clear
                  cutoff between transactions entered in the Integrated Financial
                  Management System (IFMS) and Compass.
               	 Properly migrated financial data to Compass from IFMS so that the
                  beginning balances and details of those balances are properly stated in the
                  new system.

Background
            In October 2011, EPA’s Office of the Chief Financial Officer (OCFO) replaced
            IFMS with a new system—Compass Financials (Compass). EPA’s data migration
            activities were critical to the implementation of the Compass system. EPA, in
            conjunction with its contractor, converted and migrated the data to the new
            Compass financial management system.

            The objectives of Compass are to:

               1.	 Achieve or enhance process improvements and cost savings in the
                   acquisition, development, implementation, and operation of financial
                   management systems through shared services, joint procurements,
                   consolidation, and other means.
               2.	 Provide for standardization of business processes and data elements.
               3.	 Promote seamless data exchange between and among federal agencies.
               4.	 Strengthen internal controls through real-time interoperability of core
                   financial and subsidiary systems.

            OCFO’s Office of Technology Solutions managed the conversion and migration
            strategies that define the scope of the transactions that were converted. All
            relevant reference and general ledger (GL) data were to be migrated. The GL is a
            collection of the group of accounts that supports items shown in the major
            financial statements. The conversion and migration strategies included the
            conversion of the ending balances from IFMS identified during the annual closing
            into the beginning Compass balances for fiscal year (FY) 2012.

            EPA’s IFMS GL Migration Design and Migration Strategy documents describe
            the conversion of the GL beginning balances to Compass from IFMS as part of
            EPA’s financial system modernization project. The documents contain the
            objectives, assumptions, and controls for EPA’s GL account balance conversion
            and financial migration effort. Prior to performing the conversion, the IFMS data
            needed to be crosswalked via the Crosswalk Engine so the fiscal strip elements

12-P-0559                                                                                       1
            and GL accounts were in the same format as the data converted. The migration
            strategy included a step to reconcile the FY 2011 financial data converted via
            journal voucher documents back to IFMS. The beginning balance reconciliation
            was designed to compare dollar amount fields as well as the GL account and
            accounting strip (e.g., beginning budget fiscal year, ending budget fiscal year,
            fund code). This also includes non-accounting strip data such as vendor and
            projects. Any discrepancies found between the two extractions were to be
            documented. The details of the beginning balance reconciliation process would
            also be documented as part of the conversion reconciliation design.

            The contractor developed the migration processing model or mapping for each
            conversion component. GL data was the final component of the migration process.
            In this process, the contractor converted the beginning balances for FY 2012 from
            IFMS to Compass by the creation of journal vouchers. All reference data
            (e.g., vendor code, fund code, etc.) were converted prior to the execution of the
            beginning balance conversion. The migration mapping included the use of vendor
            codes for the conversion of the beginning balance records. EPA used generic
            vendor codes (one generic vendor code for federal and one for nonfederal) for
            records where the vendor-type value was missing at the time of production.

            The migration design provided the following assumptions and steps to be completed:

                 EPA is in the process of cleaning up the beginning balance records in
                  IFMS to populate the vendor-type value when it is missing.
                EPA is in the process of cleaning up the beginning balance records in
                  IFMS to populate the trading partner value when it is missing.
               	 EPA will provide an accurate GL account crosswalk and vendor-
                  type/Federal Agencies’ Centralized Trial-Balance System Department
                  Identification crosswalk in a timely manner, consistent with the migration
                  schedule.
               	 The GL conversion process will include a reconciliation of the converted
                  beginning balance data to IFMS ending balance data.  
                    
Scope and Methodology
            We conducted our audit from December 8, 2011, to July 9, 2012, in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our conclusions based on our audit objectives. This information and results in this
            report are based on data and information received by March 23, 2012. Corrective
            actions taken by the Agency after that date are not included in this report. We will
            assess the corrective actions taken during the FY 2012 financial statement audit.




12-P-0559                                                                                      2
            We compared FY 2011 adjusted ending balances in IFMS to the FY 2012
            beginning balances in Compass to determine if they agreed. We reviewed
            FY 2012 beginning balances to identify abnormal beginning balances. We
            reviewed the GL crosswalk to determine if it was reasonable. We reviewed EPA
            policies and guidance. We reviewed documents for the GL accounts as well as
            EPA’s Compass financial management system. We also interviewed personnel
            from the Las Vegas Finance Center, Cincinnati Finance Center, Research Triangle
            Park Finance Center, Office of Financial Management, and Office of Technology
            Solutions regarding the migration of account balances to Compass from IFMS.
            Appendix A contains further details on our scope and methodology.

Results of Review
            GL balances did not properly migrate to Compass from IFMS. We found
            differences between 46 FY 2012 Compass beginning balances and FY 2011 IFMS
            ending balances. We found 17 accounts that had abnormal balances. An account
            balance is abnormal when it does not match the normal debit or credit balance
            associated with that account. We found that EPA adjusted beginning balances in
            17 accounts.

             The Federal Managers’ Financial Integrity Act, Section 2, requires agencies to
            establish accounting and administrative controls to provide reasonable assurances
            that the agency’s operations are properly recorded and accounted for to ensure
            reliability of financial reporting. The errors we found are indicators of internal
            control weaknesses and oversight weaknesses in the migration of balances. We
            asked EPA for detailed support for the beginning balances, and explanations for
            the differences, adjustments to beginning balances, and abnormal balances. The
            Agency did not provide the detailed support. Therefore, we could not fully
            determine the nature of the errors. The Agency stated that the differences in
            account balances, the adjustments to beginning balances, and abnormal balances
            were due to issues with the mapping for vendor code information, trading partner
            designations, and corrections to budget entries.

            These errors and lack of supporting documentation are evidence of material
            control weaknesses and inadequate oversight. Such errors and lack of supporting
            details indicate EPA cannot provide reasonable assurances the FY 2012 balances
            are properly recorded and ensure the reliability of the financial statements.
            Without this reliance and proper support for the balances, we may not be able to
            render an unqualified opinion when we audit the FY 2012 financial statements.

            Criteria

            We reviewed laws and regulations, federal guidance, and EPA financial policies
            associated with EPA’s financial migration, including the Federal Managers’
            Financial Integrity Act; the U.S. Government Accountability Office’s (GAO’s)
            Standards on Internal Controls in the Federal Government; OMB Circulars; and


12-P-0559                                                                                      3
            EPA policies and guidance, such as Resources Management Directives System
            2540-20, Financial Management Systems and Interfaces.

               	 The Federal Managers’ Financial Integrity Act of 1982, Section 2, states:  

                          To ensure compliance with the requirements … internal
                          accounting and administrative controls of each executive
                          agency shall be established in accordance with standards
                          prescribed by the Comptroller General, and shall provide
                          reasonable assurances that –
                              (i) obligations and costs are in compliance with
                                   applicable law;
                              (ii) funds, property, and other assets are safeguarded
                                   against waste, loss, unauthorized use, or
                                   misappropriation; and
                              (iii) revenues and expenditures applicable to agency
                                   operations are properly recorded and accounted for
                                   to permit the preparation of accounts and reliable
                                   financial and statistical reports and to maintain
                                   accountability over the assets.

                  GAO’s Standard for Internal Control in the Federal Government states:
                          The control activities should be effective and efficient in
                          accomplishing the agency’s control objectives. Control
                          activities occur at all levels and functions of the entity.

               	 OMB Circular A-123, Management’s Responsibility for Internal Control,
                  states:
                          Periodic reviews, reconciliations or comparisons of data
                          should be included as part of the regular assigned duties of
                          personnel. Periodic assessments should be integrated as
                          part of management’s continuous monitoring of internal
                          control.

               	 EPA’s Resources Management Directives System 2540-20, Financial
                  Management Systems and Interfaces, Section II.A, states:

                          All accounting transactions and interfaces will be
                          processed, reconciled, and resolved in accordance with
                          the guidance set forth by OMB.




12-P-0559                                                                                   4
                   The policy also states that:

                           All financial accounting transactions and events, budget
                           execution related and proprietary, must be fed or input
                           into EPA’s IFMS or its replacement.

            The aforementioned laws and federal and Agency guidance require the Agency to
            have internal accounting and administrative controls and continuously monitor
            their effectiveness. The errors we found and that are listed below indicate the
            existing controls are either not effective or are otherwise inadequate to prevent or
            detect errors.

            Differences Between FY 2011 Ending Balances and
            FY 2012 Beginning Balances

            EPA did not properly migrate financial data to Compass from IFMS at the EPA
            GL account level. We identified differences in 46 GL accounts. These differences
            indicate that IFMS did not migrate properly to Compass and may be an indication
            of potential errors at the transaction level and, ultimately, in the FY 2012 ending
            balances. Upon request, the Agency provided explanations for the differences in
            GL account balances, but did not provide detailed support for the differences or
            the beginning balances. Therefore, we cannot determine whether the beginning
            balances are accurate. The Agency stated:

                   Beginning balances were loaded into Compass based on the vendor
                   code information from IFMS. If the vendor code was not included
                   on a transaction posted to a federal GL account in IFMS, the
                   amount was loaded into a non-federal account in Compass.

            Although the Agency was aware that the migration was vendor driven, the
            vendor-type errors demonstrate that it did not perform a verification process of all
            vendor-type entries on the transactions posted in IFMS before the
            migration/conversion, which is an illustration of internal control and oversight
            weaknesses in the migration of balances. Because of the internal control
            weaknesses, material changes in balances, and lack of detailed support, we cannot
            rely on the Compass beginning balances. See appendix B for differences between
            the FY 2011 ending balances and the FY 2012 beginning balances.

            Differences Between FY 2011 Ending Balances and
            FY 2012 Beginning Balances at the Treasury Symbol Level

            EPA did not properly migrate financial data to Compass from IFMS at the
            treasury symbol level. Using the data noted above, we compared the IFMS
            GL account balances to the Compass balances at the treasury symbol level.
            We identified 201 differences in GL account balances by treasury symbol.
            Differences in balances at the treasury symbol level indicate that financial data



12-P-0559                                                                                       5
            may not be accurate and reliable for reporting and decision making purposes.
            See appendix C for differences identified in GL accounts by treasury symbol.

            Abnormal Balances

            We identified abnormal beginning balances in 17 GL accounts. An account
            balance is abnormal when it does not match the normal debit or credit balance
            associated with that account. For example, a credit balance in an expense account
            that normally has a debit balance would be abnormal. A debit balance in a
            liability account that normally has a credit balance would be abnormal. The
            Agency stated that it performed reconciliations at the U.S. Government Standard
            General Ledger level. Had EPA performed reconciliations at the EPA GL level, it
            would have identified the abnormal balances. The Agency further stated:

                   The remaining GL abnormal balances were due to the inaccurate
                   migration of IFMS data to Compass because Compass beginning
                   balances were loaded based on vendor code information from
                   IFMS. If the vendor code was not included on a transaction posted
                   to a federal GL account in IFMS, the amount was loaded into a
                   non-federal account in Compass.

            Abnormal balances resulting from migration errors indicate account balances are
            not recorded properly, and internal controls did not function properly and were
            inadequate. Further, this demonstrates that EPA did not do a reconciliation of
            beginning balance migrated data. If not corrected, the balances for the end of
            FY 2012 could be materially misstated. See appendix D for accounts with
            abnormal balances.

            Beginning Balance Adjustments

            We identified 17 accounts in which the beginning balances were adjusted because
            of migration errors, mapping errors, and budget corrections. We requested
            explanations and support for the adjustments to beginning balances. The Agency
            stated:

                   The Compass conversion program transferred the trading partner
                   “00” balances to the federal accounts and the blank trading partner
                   balances to non-federal accounts in most cases. To ensure the
                   movement of the amounts back into the federal accounts is
                   reported correctly and properly nets, a generic vendor code
                   CVFEDF0000 was added on the federal side for those amounts
                   that previously had no trading partner identifier.




12-P-0559                                                                                     6
                   The Agency also stated that three Appropriation Authorization1 documents were
                   entered into accounting period 00 to bring the budget balances in line with what
                   was reported on the Report of Budget Execution (SF-133). Because the
                   Appropriation Authorizations posted to the GL, they caused a discrepancy with
                   what had been in IFMS. The Agency did not provide the detailed support for the
                   adjustments in Compass.

                   Adjustments to the beginning balances also indicate that FY 2011 ending balances
                   did not migrate properly and represent inadequate internal controls over the
                   migration of data. These adjustments may also be an indication of possible errors
                   at the transaction level. Without support for what makes up these adjustments, we
                   have no assurance that the details and balances are correct. See appendix E for the
                   beginning balance adjustments due to migration, mapping errors, and budget
                   corrections.

                   General Ledger Crosswalk Errors

                   We found 20 instances in which EPA incorrectly matched IFMS and Compass
                   GL account numbers in their crosswalk. Additionally, EPA’s Compass crosswalk
                   omitted one of the Compass GL accounts. While 17 of the 20 GL accounts with
                   crosswalk errors did not have balances to transfer between the systems, EPA
                   should not have had errors in the GL crosswalk during or after migration.
                   According to the contractor’s IFMS GL Migration Design plan, updated
                   October 18, 2010, the contractor processed data through its Crosswalk Engine.
                   However, EPA management was responsible for providing the crosswalk to the
                   contractor. Because the conversion was dependent on the accuracy of EPA’s GL
                   crosswalk, the crosswalk errors caused some GL balances to improperly migrate
                   to Compass. The Agency provided multiple crosswalks that indicate there were
                   subsequent changes and corrections to the initial crosswalk, and EPA did not
                   provide a proper crosswalk to the contractor. While the corrections may be
                   appropriate for future transactions, EPA should ensure that transactions processed
                   before the crosswalk was changed are corrected. Since there are errors in the
                   crosswalk, the beginning balances and, subsequently, ending balances could be
                   misstated. The multiple errors in the crosswalk demonstrate a control weakness
                   and indication of inadequate internal controls over the migration. See appendix F
                   for general ledger crosswalk errors.

Conclusion
                   EPA did not properly migrate general ledger balances from IFMS to Compass.
                   We found that the inadequate oversight of the internal controls over the migration
                   process resulted in differences in certain FY 2012 beginning balances, abnormal
                   GL balances, adjustments to beginning balances, and errors in the GL crosswalk.
                   We requested supporting documentation for the corrections and errors and, to

1
    Appropriation Authorization documents are used to process budgetary authority in EPA’s accounting system.


12-P-0559                                                                                                       7
            date, the Agency has not provided the support. The Agency stated that the
            migration errors were due to the incorrect mapping of vendor code information,
            errors in trading partner designations, and corrections to erroneous budget entries.
            The Agency’s migration strategy documents provided detailed instructions and
            control procedures to ensure a proper migration from IFMS to Compass. Some of
            these procedures include preparing the general ledger accounts for conversion by
            verifying vendor-type data and trading partner values, providing an accurate GL
            crosswalk, and performing reconciliations of converted beginning balance data.

            Because we did not receive the supporting documentation, we cannot determine
            whether the GL balances or adjustments to those balances are reasonable. EPA
            faces a significant management challenge to reconcile account differences,
            implement and ensure proper internal controls, and ensure its financial statements
            are reliable. The migration errors identified, and the Agency’s inability to provide
            supporting documentation, cause concern about the ability to audit FY 2012 data
            or render an unqualified opinion when we audit the FY 2012 financial statements.

Recommendations
            We recommend that the Chief Financial Officer:

               1.	 Perform a reconciliation of the supporting data elements in the GL account
                   beginning balances and determine whether they properly migrated to
                   Compass from IFMS. Document and record any adjustments as necessary.

               2.	 Perform a reconciliation of the supporting data elements in the treasury
                   symbol beginning balances to determine whether they properly migrated
                   to Compass from IFMS. Document and record any adjustments as
                   necessary.

               3.	 Adjust the general ledger accounts with abnormal balances to include
                   accurate activity and reflect the proper balances.

               4.	 Correct and finalize the general ledger crosswalk, and provide the details
                   to the EPA Office of Inspector General.

Agency Corrective Actions
            We informed the Agency of issues identified in this report. The Agency stated it
            has taken corrective actions and will provide supporting documentation. We will
            assess the Agency’s corrective actions during the FY 2012 financial statement
            audit.




12-P-0559                                                                                       8
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

     1        8     Perform a reconciliation of the supporting data         U      Chief Financial Officer
                    elements in the GL account beginning balances
                    and determine whether they properly migrated to
                    Compass from IFMS. Document and record any
                    adjustments as necessary.

     2        8     Perform a reconciliation of the supporting data         U      Chief Financial Officer
                    elements in the treasury symbol beginning
                    balances to determine whether they properly
                    migrated to Compass from IFMS. Document and
                    record any adjustments as necessary.

     3        8     Adjust the GL accounts with abnormal balances to        U      Chief Financial Officer
                    include accurate activity and reflect the proper
                    balances.

     4        8     Correct and finalize the general ledger crosswalk,      U      Chief Financial Officer
                    and provide the details to the EPA Office of
                    Inspector General.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0559                                                                                                                                        9
                                                                                    Appendix A

                 Details on Scope and Methodology
We reviewed laws and regulations pertaining to the activities associated with the financial
migration, including EPA policies and guidance, such as Resources Management Directive
System 2540-20, Financial Management Systems and Interfaces; GAO’s Standards on Internal
Control in the Federal Government; and the Federal Managers’ Financial Integrity Act.

We obtained the FY 2012 period 00 Compass trial balance spreadsheet from EPA. The trial
balance spreadsheet contained the treasury symbols, GL accounts, and beginning balances. We
imported the spreadsheet into Interactive Data Extraction and Analysis and summarized the file
by GL account and amount. Using the GL account crosswalk spreadsheet provided by EPA as a
guide, we compared the FY 2011 ending balances in the IFMS GL accounts to the 2012
beginning balances in the Compass GL accounts. We identified any differences and questioned
EPA about these differences.

We also reconciled the FY 2011 ending balances to the FY 2012 beginning balances at the
treasury symbol level. We identified the FY 2011 treasury symbols from the journal file. We
compared the treasury symbols in IFMS to the treasury symbols in the Compass spreadsheet for
each GL account. For any differences identified, we asked the Agency to provide explanations
for the differences in the GL accounts at the treasury symbol level.

We performed independent queries of period 00 activity for each GL account. We extracted the
details of the beginning balances for the accounting period 00 in Compass. We sorted the data by
document number and subtotaled the data by document type (such as “BBCNV” and
“BEGBALCORR”). Based on our analysis, we identified activity other than “Conversion”
entries from IFMS to Compass. We requested explanations and supporting documentation for
each different “non-BBCNV” document, including the reason for the entry, why the entry was
made, and the source for the amounts in the entry.

We developed a questionnaire to obtain information from EPA staff involved with Compass. The
objective of the questionnaire was to determine and identify roles and responsibilities of staff
involved in the implementation of Compass, and to identify any problems encountered with the
migration.

Prior Reviews

We researched prior EPA Office of Inspector General (OIG) and GAO reports related to the
implementation of new financial systems. We noted two pertinent reports, as listed below:

   	 EPA OIG Report No. 11-P-0019, Improvements Needed in EPA’s Efforts to Replace
      Its Core Financial Systems, November 29, 2010. We found that OCFO’s management
      control processes do not ensure compliance with EPA’s System Life Cycle Management
      policies and procedures necessary to provide reasonable assurance that efforts to replace
      the Agency’s core financial system achieve the desired results. OCFO proceeded with the


12-P-0559                                                                                     10
       design sub-phase without obtaining executive management’s approval of the revised
       requirements or developing and obtaining required approval of the associated test plans,
       as required by EPA’s System Life Cycle Management procedure. Furthermore, OCFO
       did not predetermine the acceptable product acceptance test script failure percentages to
       be used as the basis of management’s go/no-go decision on the project. These conditions
       could result in a system that does not meet management’s expectations and EPA’s needs,
       and/or does not comply with all applicable federal and EPA requirements.

   	 GAO Report No. GAO-08-1018, Persistent Financial Management Systems Issues
      Remain for Many CFO Act Agencies, September 30, 2008. GAO found that agencies’
      efforts to implement new systems far too often result in systems that do not meet cost,
      schedule, and performance goals. Recent modernization efforts by some agencies have
      been hampered by not following disciplined processes. To help avoid implementation
      problems, OMB continues to make progress on its financial management line of business
      initiative, which promotes business-driven, common solutions for agencies to enhance
      federal financial management, but additional efforts are needed.

Internal Control Review

We reviewed and assessed the internal controls relevant to our audit objective of identifying
whether IFMS FY 2011 ending general ledger balances, and details of those balances, properly
migrated as FY 2012 beginning balances to Compass. To assess and determine the adequacy of
the controls over the migration, we gained an understanding of the financial system migration
process and reviewed relevant information or weaknesses identified. We gained an
understanding of the internal controls over the migration process through interviews of EPA’s
OCFO personnel and reviews of applicable laws/regulations and EPA’s policies and procedures.
In addition, we reviewed GAO reports, previous EPA OIG reports, other agency OIG reports, the
FY 2010 and 2011 management challenges identified by the OIG for the Agency, and EPA’s
OMB Circular A-123 review.

To assess the reliability of the information systems used, we compared FY 2011 ending balances
in IFMS to FY 2012 beginning balances in Compass. We considered the IFMS data to be reliable
based on the EPA’s FY 2011 audited financial statements. We determined that the Compass
system FY 2012 beginning balances were not reliable because the FY 2011 ending balances in
IFMS did not agree with the FY 2012 beginning balances in Compass. We verified any related
data in the Compass system by comparing it with the supporting documentation for beginning
balance corrections.

Based on results and conclusions, we found that EPA’s internal controls over the data migration
from IFMS to Compass appeared inadequate. We found that general ledger balances did not
migrate properly from IFMS to Compass. The logic behind the migration from IFMS to
Compass was based on vendor type. However, the transactions in IFMS migrating to Compass
did not always list vendor type or a correct vendor type. Therefore, the general ledger accounts
were mapped incorrectly for the migration, which resulted in misstated and abnormal general
ledger beginning balances.




12-P-0559                                                                                      11
                                                                                   Appendix B

       Differences Between FY 2011 Ending Balances and
                  FY 2012 Beginning Balances

 FY 11 00 - 17 Appended Journal           Compass FY 12 Beginning
  File Post Close Trial Balance          Balance from BBCNV Entries             
                                           GL
GL Account     Dollar Amount             Account      Dollar Amount                 Difference
ASSETS
   1010                      $0.00        101000    $15,045,216,140.23        ($15,045,216,140.23)
   1011        $15,045,903,513.77        10100011                  $0.00        $15,045,903,513.77
   10P2           ($15,193,407.06)       10100071      ($14,506,033.52)               ($687,373.54)
   1340              $8,110,830.90       13400002        $93,808,531.02           ($85,697,700.12)
   1347           ($84,740,219.85)       13470002      ($84,741,112.07)                     $892.22
   134C              $1,158,770.29       13400001          $2,561,541.11            ($1,402,770.82)
   134G                      $0.00       13400003              $4,174.82                 ($4,174.82)
   134S             $87,104,645.76       13400001                   $0.0           ($87,104,645.76
   13F1              $4,251,582.88       13100011          $4,739,397.24              ($487,814.36)
   13F2                      $0.00       13100031              ($383.99)                    $383.99
   13F3              $5,012,397.03       13100041          $4,564,468.30                $447,928.73
   13F4             $26,005,263.63       13100051        $27,718,658.11             ($1,713,394.48)
   13F5                $143,196.54       13100031                  $0.00                $143,196.54
   13F6                      $0.00       13100053   ($1,434,466,124.86)          $1,434,466,124.86
   13F9                      $0.00       13190001          ($197,648.44)                $197,648.44
   13FA                   $250.00        13100031                  $0.00                    $250.00
   13G1                      $0.00       13100013             $17,177.88               ($17,177.88)
   13P1          $1,492,042,533.75       13100012     $2,924,290,271.89        ($1,432,247,738.14)
   13P2             $21,776,221.64       13100032        $21,920,052.17               ($143,830.53)
   13P3            $551,173,249.47       13100042       $551,621,178.20               ($447,928.73)
   13P9        ($1,722,301,531.94)       13190002   ($1,722,103,883.50)               ($197,648.44)
   1411                $486,077.77       14100012            $490,270.78                 ($4,193.01)
   1421              $3,117,232.66       14100011          $3,176,567.61               ($59,334.95)
   1432                $600,629.48       14100016           ($14,201.51)                $614,830.99
   1441              $1,237,700.97       14100018        $23,323,483.82           ($22,085,782.85)
   1445                      $0.00       14100021      ($13,651,046.82)             $13,651,046.82
   1446                $154,027.25       14100023        ($7,729,405.75)              $7,883,433.00




   12-P-0559                                                                                 12
  FY 11 00 - 17 Appended Journal                    Compass FY 12 Beginning
   File Post Close Trial Balance                   Balance from BBCNV Entries                   
                                                     GL
GL Account           Dollar Amount                 Account      Dollar Amount                          Difference
LIABILITIES
   2111                     ($61,756.25)          21100011            ($3,508,526.86)                     $3,446,770.61
   2112                 ($69,505,037.17)          21100012          ($66,058,266.56)                    ($3,446,770.61)
   22F3                 ($25,495,147.36)          22130011          ($25,495,027.49)                          ($119.87)
   22P3                  ($4,008,456.78)          22130012            ($4,008,576.65)                           $119.87
   2311                        ($840.00)          24000011              $5,094,159.74                   ($5,094,999.74)
   2312                 ($69,791,395.31)          23100012         ($308,158,066.54)                   $238,366,671.23
   2314                    ($292,270.30)          23100012                      $0.00                     ($292,270.30)
   2315                 ($38,980,203.20)          23100013                      $0.00                 ($38,980,203.20)
   2316                 ($34,978,779.73)          23100031            $60,622,056.15                  ($95,600,835.88)
   2317                ($653,999,156.25)          23100032         ($749,599,992.13)                    $95,600,835.88
   2318                            $0.00          23100021           $199,094,197.73                 ($199,094,197.73)
   2326                            $0.00          23200021            ($1,163,379.49)                     $1,163,379.49
   2327                ($136,069,973.29)          23200022         ($134,906,593.80)                    ($1,163,379.49)
   2400                            $0.00          24000012          ($14,289,234.53)                    $14,289,234.53
   240P                    ($914,581.57)          24000012                      $0.00                     ($914,581.57)
   24P0                  ($8,279,653.22)          24000012                      $0.00                   ($8,279,653.22)
BUDGET
   4222                 $933,728,976.44           42220011         $1,798,389,553.91                 ($864,660,577.47)
                                                  42220012         ($864,774,526.22)                   $864,774,526.22
    4921                 ($1,969,907.00)          49010012            ($1,942,182.01)                     ($27,724.99)
                                                  49010011               ($21,362.99)                       $21,362.99
    4923                ($82,102,790.99)          49010013            ($7,749,531.10)                 ($74,353,259.89)
                                                  49010014          ($74,359,621.89)                    $74,359,621.89
Source: OIG analysis based on 2011 ending balances in IFMS and 2012 beginning balances in Compass.




     12-P-0559                                                                                                  13
                                                                                                                                Appendix C

                                    Differences Between FY 2011 Ending Balances and
                                 FY 2012 Beginning Balances at the Treasury Symbol Level
                                               IFMS                                         COMPASS
                                             GL
                              TRS SYM       ACCT         AMOUNT             TRS SYM       GL ACCT       AMOUNT            DIFFERENCE
                            (41)681/20108   1011           ($10,000.00)                                                       ($10,000.00)
   WITH TREASURY
   FUND BALANCE




                             6800/010108    1011             $16,067.44                                                         $16,067.44
                              681/20108     1011      $3,173,744,710.71    6811/120108     #101000    $3,173,734,710.71         $10,000.00
                              683/40108     1011            $671,306.10                                                        $671,306.10
                             6800/010108    10P2           ($16,067.44)                                                       ($16,067.44)
                              683/40108     10P2          ($671,306.10)        ???          ???                              ($671,306.10)
                                683229      1015             ($4,597.32)                                                        ($4,597.32)
                              68322900      1015               $4,597.32                                                          $4,597.32
                             6800/010108    13F1                   $0.00   #6800/010108   #13100011         $18,767.20        ($18,767.20)
                             6801/020108    13F1                   $0.00   #6801/020108   #13100011         $18,652.59        ($18,652.59)
                             68-20X8145     13F1            $256,827.72    #68-68X8145    #13100011        $850,269.98       ($593,442.26)
                               6880200      13F1                   $0.00    #68880200     #13100011      ($143,047.69)         $143,047.69
                             68-20X8145     13G1                   $0.00   #68-68X8145    #13100013         $17,177.88        ($17,177.88)
                                                                           #68-68X8145    #13100031           ($633.99)             $633.99
      FEDERAL RECEIVABLES




                             20X8145.4      13F3          $4,273,607.76     #20X8145.4    #13100041      $3,849,981.69         $423,626.07
                              681099        13F3                  $0.00      #681099      #13100041       ($24,302.66)          $24,302.66
                             680/10107      13F4            $243,303.54    #6810/110107   #13100051        $238,624.44            $4,679.10
                             680/10108      13F4          $3,720,500.54    #6810/110108   #13100051      $3,609,567.59         $110,932.95
                            6800/010108     13F4                  $0.00    #6800/010108   #13100051       ($18,776.96)          $18,776.96
                            6801/020108     13F4                  $0.00    #6801/020108   #13100051       ($18,501.82)          $18,501.82
                             681/20108      13F4          $1,418,532.86    #6811/120108   #13100051      $1,355,252.76          $63,280.10
                             682/30107      13F4                  $0.00    #6802/030107   #13100051         ($5,114.55)           $5,114.55
                            68-20X8145      13F4          $4,806,679.14    #68-68X8145    #13100051      $5,028,364.51       ($221,685.37)
                             684/50108      13F4             $19,147.06    #6804/050108   #13100051         $58,276.98        ($39,129.92)
                             685/60107      13F4              $5,461.45    #6805/060107   #13100051           ($902.28)           $6,363.73
                             685/60108      13F4           $340,869.12     #6805/060108   #13100051        $954,639.29       ($613,770.17)
                             686/70107      13F4           $216,567.76     #6806/070107   #13100051        $228,188.58        ($11,620.82)
                             686/70108      13F4           $192,995.02     #6806/070108   #13100051        $190,310.50            $2,684.52


12-P-0559                                                                                                                               14
                                             IFMS                                         COMPASS
                                           GL
                              TRS SYM     ACCT         AMOUNT              TRS SYM       GL ACCT         AMOUNT              DIFFERENCE
                              688/90108   13F4           $196,075.82     #6808/090108   #13100051           $192,304.77               $3,771.05
                               68X8221    13F4         $12,964,440.01      #68X8221     #13100051        $14,025,732.99        ($1,061,292.98)
                               68X4565    13F6         $12,810,001.08      #68X4565     #13100053   ($1,421,656,123.78)     $1,434,466,124.86
                              20X8145.4   13F9                 ($0.00)    #20X8145.4    #13190001            $53,282.90           ($53,282.90)
                                681099    13F9                 ($0.00)      #681099     #13190001             $5,238.64             ($5,238.64)
                                683200    13F9                   $0.00      #683200     #13190001         ($257,989.05)            $257,989.05
                                683220    13F9                 ($0.00)      #683220     #13190001             $1,819.07             ($1,819.07)
                              68110118    13F5           $143,196.54                                                               $143,196.54
                              680/10108   13P1           $310,924.00     #6810/110108   #13100012           $421,856.95          ($110,932.95)
                              681/20108   13P1          $3,056,680.25    #6811/120108   #13100012         $3,119,960.35           ($63,280.10)
                             68-20X8145   13P1      $1,488,448,084.07    #68-68X8145    #13100012    $1,487,615,778.56             $832,305.51
                                                                         #6800/010108   #13100012                 $9.76                  ($9.76)
                                                                         #6801/020108   #13100012             ($150.77)                 $150.77
                                                                         #6802/030107   #13100012             $5,114.55             ($5,114.55)
                                                                         #6804/050108   #13100012          ($39,129.92)             $39,129.92
    NONFEDERAL RECEIVABLES




                                                                         #6805/060107   #13100012             $6,363.73             ($6,363.73)
                                                                         #6805/060108   #13100012         ($613,770.17)            $613,770.17
                                                                         #6806/070107   #13100012          ($11,620.82)             $11,620.82
                                                                         #6806/070108   #13100012             $2,684.52             ($2,684.52)
                                                                         #6808/090108   #13100012             $3,771.05             ($3,771.05)
                                                                         #6810/110107   #13100012             $4,679.10             ($4,679.10)
                                                                          #68880200     #13100012           $143,047.69          ($143,047.69)
                                                                           #68X4565     #13100012    $1,434,466,124.86    ($1,434,466,124.86)
                                                                           #68X8221     #13100012       ($1,061,292.98)          $1,061,292.98
                             68-20X8145   13P2          $7,315,384.15    #68-68X8145    #13100032         $7,316,018.14               ($633.99)
                                                                          #68110118     #13100032           $143,196.54          ($143,196.54)
                             20X8145.4    13P3        $232,647,107.10     #20X8145.4    #13100042      $233,070,733.17           ($423,626.07)
                              681099      13P3        $183,214,129.17       #681099     #13100042      $183,238,431.83            ($24,302.66)
                             20X8145.4    13P9      ($163,456,067.25)     #20X8145.4    #13190002    ($163,509,350.15)              $53,282.90
                              681099      13P9      ($149,175,789.70)       #681099     #13190002    ($149,181,028.34)                $5,238.64
                              683200      13P9       ($17,317,474.61)       #683200     #13190002     ($17,059,485.56)           ($257,989.05)
                              683220      13P9          ($487,715.44)       #683220     #13190002         ($489,534.51)               $1,819.07




12-P-0559                                                                                                                                    15
                                   IFMS                                     COMPASS
                                  GL
                    TRS SYM      ACCT     AMOUNT            TRS SYM       GL ACCT      AMOUNT            DIFFERENCE
                   68-68X8145    1411       $281,662.62    68-68X8145     14100012       $283,341.06           ($1,678.44)
                      683220     1411             $0.00       683220      14100012              $0.15               ($0.15)
                   6804/050108   1411             $0.00    6804/050108    14100012           $633.82             ($633.82)
                     68X4565     1411       $119,774.59      68X4565      14100012       $121,655.19           ($1,880.60)
                   68-68X8145    1421        $70,455.49    68-68X8145     14100011       $129,790.44         ($59,334.95)
                     68X0103     1432        $90,600.00      68X0103      14100016         $20,000.00          $70,600.00
                   68-68X8145    1432             $0.00    68-68X8145     14100016       ($34,201.51)          $34,201.51
                    680/10107    1432        $96,433.28                   14100016              $0.00          $96,433.28
                    681/20107    1432       $388,531.33                   14100016              $0.00         $388,531.33
                    689/00107    1432        $20,800.04                   14100016              $0.00          $20,800.04
                    681/20108    1432         $4,264.83                   14100016              $0.00            $4,264.83
                   68-20X8145    1441       $724,556.97                                                       $724,556.97
    OTHER ASSETS




                    684/50108    1441          $634.00     #6804/050108   #14100018    $11,446,674.21    ($11,446,040.21)
                     68X0103     1441        $20,000.00      #68X0103     #14100018        $90,600.00        ($70,600.00)
                     68X4565     1441       $492,510.00      #68X4565     #14100018     $8,374,062.40     ($7,881,552.40)
                                                           #6809/100107   #14100018        $20,800.04        ($20,800.04)
                                                           #6810/110107   #14100018        $96,433.28        ($96,433.28)
                                                           #6811/120107   #14100018      $388,531.33        ($388,531.33)
                                                           #6811/120108   #14100018         $4,264.83          ($4,264.83)
                                                              #683220     #14100018            ($0.15)                $0.15
                                                           #68-68X8145    #14100018     $2,882,582.79     ($2,882,582.79)
                                                           #68-68X8153    #14100018        $10,369.59        ($10,369.59)
                                                             #68X8221     #14100018         $9,165.50          ($9,165.50)
                   68-20X8145    1445      $5,505,748.56                                                    $5,505,748.56
                   68-20X8153    1445         $65,491.25                                                       $65,491.25
                    68X8221      1445         $11,819.19     #68X8221     #14100021          $2,653.69           $9,165.50
                                                           #6804/050108   #14100021   ($11,446,674.03)     $11,446,674.03
                                                           #68-68X8145    #14100021      $3,320,910.86    ($3,320,910.86)
                                                           #68-68X8153    #14100021         $55,121.66       ($55,121.66)
                    68X4565      1446       $154,027.25      #68X4565     #14100023    ($7,729,405.75)      $7,883,433.00




12-P-0559                                                                                                               16
                                                    IFMS                                        COMPASS
                                                   GL
                                      TRS SYM     ACCT       AMOUNT              TRS SYM       GL ACCT       AMOUNT            DIFFERENCE
                                     68-20X8145   2312     ($30,244,161.33)    #68-68X8145    #23100012   ($250,743,163.77)    $220,499,002.44
                                      680/10108   2312        ($978,998.94)    #6810/110108   #23100012     ($1,017,891.63)          $38,892.69
                                      681/20108   2312     ($17,082,237.52)    #6811/120108   #23100012    ($17,083,326.51)            $1,088.99
                                      684/50107   2312           ($4,512.84)   #6804/050107   #23100012          $86,827.47        ($91,340.31)
                                      684/50108   2312        ($531,141.61)    #6804/050108   #23100012       ($722,168.38)         $191,026.77
                                      685/60107   2312           ($1,412.48)   #6805/060107   #23100012        ($98,912.48)          $97,500.00
                                      685/60108   2312          $271,578.61    #6805/060108   #23100012         $211,932.74          $59,645.87
                                      686/70108   2312        ($269,924.80)    #6806/070108   #23100012         $491,726.93       ($761,651.73)
                                      687/80107   2312              $338.86    #6807/080107   #23100012        ($43,579.47)          $43,918.33
                                      687/80108   2312        ($184,856.09)    #6807/080108   #23100012            $2,289.73      ($187,145.82)
    CASHOUT ADVANCES AND DEFERRALS




                                      688/90107   2312         ($34,462.10)    #6808/090107   #23100012         $465,537.31       ($499,999.41)
                                      688/90108   2312           ($4,525.25)   #6808/090108   #23100012         $519,815.00       ($524,340.25)
                                      689/00107   2312              $535.95    #6809/100107   #23100012          $68,686.04        ($68,150.09)
                                      689/00108   2312         ($47,369.13)    #6809/100108   #23100012       $2,259,686.26     ($2,307,055.39)
                                       68X0108    2312           $37,422.60      #68X0108     #23100012          $50,389.95        ($12,967.35)
                                       68X4310    2312      ($8,759,533.66)      #68X4310     #23100012    ($28,942,198.68)     $20,182,665.02
                                       68X5297    2312         ($18,716.23)      #68X5297     #23100012        ($82,761.75)          $64,045.52
                                       68X5374    2312     ($10,553,328.59)      #68X5374     #23100012    ($15,694,176.54)       $5,140,847.95
                                                                                  #681099     #23100012       ($291,729.60)         $291,729.60
                                                                                  #683220     #23100012            ($540.70)            $540.70
                                                                                 #68X4565     #23100012       $3,840,974.70     ($3,840,974.70)
                                                                                 #68X8221     #23100012        ($49,392.40)          $49,392.40
                                     68-20X8145   2314                $0.00    #68-68X8145    #23100012   ($250,743,163.77)    $250,743,163.77
                                                                               #6804/050107   #23100012          $86,827.47        ($86,827.47)
                                                                               #6804/050108   #23100012       ($722,168.38)         $722,168.38
                                                                               #6805/060107   #23100012        ($98,912.48)          $98,912.48
                                                                               #6805/060108   #23100012         $211,932.74       ($211,932.74)
                                                                               #6806/070107   #23100012          ($8,736.53)           $8,736.53
                                                                               #6806/070108   #23100012         $491,726.93       ($491,726.93)
                                                                               #6807/080107   #23100012        ($43,579.47)          $43,579.47
                                                                               #6807/080108   #23100012            $2,289.73         ($2,289.73)
                                                                               #6808/090107   #23100012         $465,537.31       ($465,537.31)
                                                                               #6808/090108   #23100012         $519,815.00       ($519,815.00)
                                                                               #6809/100107   #23100012          $68,686.04        ($68,686.04)



12-P-0559                                                                                                                                    17
                           IFMS                                         COMPASS
                          GL
            TRS SYM      ACCT       AMOUNT               TRS SYM       GL ACCT       AMOUNT           DIFFERENCE
                                                       #6809/100108   #23100012       $2,259,686.26    ($2,259,686.26)
                                                       #6810/110107   #23100012       ($294,536.70)        $294,536.70
                                                       #6810/110108   #23100012     ($1,017,891.63)      $1,017,891.63
                                                       #6811/120107   #23100012     ($1,042,172.42)      $1,042,172.42
                                                       #6811/120108   #23100012    ($17,083,326.51)     $17,083,326.51
                                                         #68X0108     #23100012          $50,389.95       ($50,389.95)
                                                         #68X4310     #23100012    ($28,942,198.68)     $28,942,198.68
                                                         #68X4311     #23100012        ($40,645.11)         $40,645.11
                                                         #68X4565     #23100012       $3,840,974.70    ($3,840,974.70)
                                                         #68X5297     #23100012        ($82,761.75)         $82,761.75
                                                         #68X5374     #23100012    ($15,694,176.54)     $15,694,176.54
                                                         #68X8221     #23100012        ($49,392.40)         $49,392.40
            68-20X8145   2315         ($290,446.22)                                                      ($290,446.22)
             680/10107   2315           ($2,432.05)                                                         ($2,432.05)
             680/10108   2315       ($8,853,064.08)                                                    ($8,853,064.08)
             681/20108   2315       ($6,916,784.01)                                                    ($6,916,784.01)
             684/50108   2315           ($3,018.35)                                                         ($3,018.35)
             685/60108   2315              ($57.00)                                                            ($57.00)
             686/70108   2315            $13,429.59                                                         $13,429.59
             687/80108   2315          ($20,584.03)                                                       ($20,584.03)
             688/90107   2315       ($1,025,058.50)                                                    ($1,025,058.50)
             688/90108   2315         ($156,753.44)                                                      ($156,753.44)
             689/00107   2315         ($503,054.08)                                                      ($503,054.08)
             689/00108   2315       ($1,435,669.36)                                                    ($1,435,669.36)
             689/08195   2315      ($19,636,961.89)                                                   ($19,636,961.89)
             689/10108   2315                ($3.09)                                                            ($3.09)
              6890112    2315         ($100,354.29)                                                      ($100,354.29)
              68X8221    2315          ($49,392.40)                                                       ($49,392.40)
            68-20X8145   2316      ($34,978,779.73)    #68-68X8145    #23100031      $60,622,056.15   ($95,600,835.88)
            68-20X8145   2317     ($653,999,156.25)     68-68X8145    #23100032   ($749,599,992.13)     $95,600,835.88
              68X4565    2318      ($32,389,558.32)      #68X4565     #23100021    ($36,230,533.02)      $3,840,974.70
                                                       #6804/050107   #23100021        ($91,340.31)         $91,340.31
                                                       #6804/050108   #23100021         $188,008.42      ($188,008.42)
                                                       #6805/060107   #23100021          $97,500.00       ($97,500.00)



12-P-0559                                                                                                           18
                                         IFMS                                       COMPASS
                                        GL
                             TRS SYM   ACCT     AMOUNT               TRS SYM       GL ACCT      AMOUNT             DIFFERENCE
                                                                   #6805/060108   #23100021         $59,588.87         ($59,588.87)
                                                                   #6806/070108   #23100021      ($748,222.14)          $748,222.14
                                                                   #6807/080107   #23100021         $43,918.33         ($43,918.33)
                                                                   #6807/080108   #23100021      ($207,729.85)          $207,729.85
                                                                   #6808/090107   #23100021    ($1,525,057.91)        $1,525,057.91
                                                                   #6808/090108   #23100021      ($681,093.69)          $681,093.69
                                                                   #6809/100107   #23100021      ($571,204.17)          $571,204.17
                                                                   #6809/100108   #23100021    ($3,742,724.75)        $3,742,724.75
                                                                   #6809/108195   #23100021   ($19,636,961.89)       $19,636,961.89
                                                                   #6809/110108   #23100021             ($3.09)                $3.09
                                                                    #68090112     #23100021      ($100,354.29)          $100,354.29
                                                                   #6810/110107   #23100021         ($2,432.05)            $2,432.05
                                                                   #6810/110108   #23100021    ($8,814,171.39)        $8,814,171.39
                                                                   #6811/120108   #23100021    ($6,915,695.02)        $6,915,695.02
                                                                   #68-68X8145    #23100021   $220,208,556.22     ($220,208,556.22)
                                                                     #68X0108     #23100021       ($12,967.35)           $12,967.35
                                                                     #68X4310     #23100021     $20,182,665.02     ($20,182,665.02)
                                                                     #68X5297     #23100021         $64,045.52         ($64,045.52)
                                                                     #68X5374     #23100021      $5,140,847.95      ($5,140,847.95)
                                       2311               $0.00      #68F3875     #24000011      $5,032,399.65      ($5,032,399.65)
  ACCRUED LIABILITIES, AND




                                       2311               $0.00      #68X6275     #24000011         $62,600.09         ($62,600.09)
    ACCOUNTS PAYABLE,




                                       24F0                          #68F3875     #24000011      $5,032,399.65      ($5,032,399.65)
     OTHER LIABILITIES




                                       24F0                          #68X6275     #24000011         $62,600.09         ($62,600.09)
                             68F3875   240P     ($1,178,057.47)                   #24000012               $0.00     ($1,178,057.47)
                             68F3880   240P          ($1,018.25)                  #24000012               $0.00          ($1,018.25)
                             68X6275   240P        $256,221.26                    #24000012               $0.00         $256,221.26
                             68X6276   240P            $8,272.89                  #24000012               $0.00            $8,272.89
                             68F3875   24P0     ($1,512,014.89)     #68F3875      #24000012    ($7,722,472.01)        $6,210,457.12
                             68F3880   24P0                $0.00    #68F3880      #24000012         ($1,018.25)            $1,018.25
                             68X6275   24P0     ($7,502,734.58)     #68X6275      #24000012    ($7,309,113.41)        ($193,621.17)
                             68X6276   24P0       $1,214,779.60     #68X6276      #24000012      $1,223,052.49           ($8,272.89)




12-P-0559                                                                                                                        19
                                IFMS                                                   COMPASS
                               GL
              TRS SYM         ACCT        AMOUNT                   TRS SYM            GL ACCT              AMOUNT             DIFFERENCE
             68-20X8145       4450      $133,908,093.60           #68-68X8145        #44500002           ($47,866,115.18)      $181,774,208.78
              68X5374         4450       ($4,737,049.78)           No Activity                                                  ($4,737,049.78)
               68X8221        4450       ($2,436,712.12)           #68X8221          #44500002             ($2,436,712.69)                 $0.57
               68X8741        4450          ($75,608.95)           #68X8741          #44500002                       $0.65         ($75,609.60)
             68-20X8145       4451   ($2,167,441,125.83)          #68-68X8145        #44500001         ($1,985,666,917.05)   ($181,774,208.78)
    BUDGET




               68X8221        4451      ($20,256,552.28)           #68X8221          #44500001            ($20,256,551.71)               ($0.57)
              No Activity                                          #68X5374          #44500001             ($4,737,049.78)        $4,737,049.78
              No Activity                                          #68X8741          #44500001                ($75,609.60)           $75,609.60
             68-20X8145        4923          ($32,552,143.75)     #68-68X8145        #48010013               $7,046,215.57              $372.89
             68-20X8145        4923          ($32,552,143.75)     #68-68X8145        #48010014              $25,506,301.07              $372.89
              68X4310          4923             ($463,167.74)      #68X4310          #48010013                 $202,952.70            $2,751.97
              68X4310          4923             ($463,167.74)      #68X4310          #48010014                $262,967.01             $2,751.97
  Source: OIG analysis based on 2011 ending balances in IFMS and 2012 beginning balances in Compass.




12-P-0559                                                                                                                                    20
                                                                       Appendix D


               Abnormal Beginning Balances in Compass
  Compass
    A/C                             Compass Account Description        Balance
   133500        EXPENDITURE TRANSERS RECEIVABLE                        ($1,325,492.45)
  13100031       BILLED REFUND FEDERAL                                       ($383.99)
  13100053       WCF ADVANCES TO BE APPLIED                         ($1,434,466,124.86)
  14100016       GRANT ADVANCES                                            ($14,201.51)
  14100021       ADVANCE TO WCF                                       ($13,651,046.82)
  14100023       ADVANCES FOR POSTAGE, WCF                              ($7,729,405.75)
  24000011       LIABILITY DEP/CI FDS CASH DIFFERENCE FEDERAL            $5,094,159.74
  23100031       ADVANCES, HRSTS CASHOUTS, FEDERAL                      $60,622,056.15
  23100021       OTHER ADVANCES, FEDERAL                               $199,094,197.73
   298000        CUSTODIAL LIABILITY                                    $66,342,857.88
   414900        BORROW AUTH CARRIED FORWARD                             ($256,122.00)
  42210012       UNFILLED CUSTOMER ORDERS UNCOLLECTED, NONFEDERAL    ($637,931,687.71)
  42220012       UNFILLED CUSTOMER ORDERS COLLECTED, NONFEDERAL      ($864,660,577.47)
  48010021       UNDELIVERED ORDERS-OBLIG, UNPD FEDERAL                $125,416,478.38
  48010011       UND ORDERS-OBLIG, REIMB UNPD FEDERAL                   $28,849,767.02
  48020011       UND ORD-OBLIG, REIMB PREPD/ ADVD FEDERAL                $4,217,485.31
  49010021       DELIVERED ORDERS-OBLIG, UNPAID FEDERAL                $191,518,381.19
Source: OIG analysis of beginning balances provided by EPA.




   12-P-0559                                                                     21
                                                                                                       Appendix E


                 Beginning Balance Adjustments Due to Migration,
                     Mapping Errors, and Budget Corrections
                                                    CARRYOVERBAL
GL ACCT         BBCNV              BEGBALCORR         CORRECT                2012-0           OB-2012         SUMMARY
10100011                            ($691,261.00)                                             $691,261.00               $0.00
13400001         $2,561,541.11 ($1,402,770.82)                                                                  $1,158,770.29
13400002        $93,808,531.02 ($6,703,885.26)                                                                 $87,104,645.76
13400003               $4,174.82      ($4,174.82)                                                                       $0.00
13400004                            $8,110,830.90                                                               $8,110,830.90
13470002      ($84,741,112.07)           $892.22                                                              ($84,740,219.85)
21100011       ($3,508,526.86)      $3,446,770.61                                                                 ($61,756.25)
21100012      ($66,058,266.56) ($3,446,770.61)                                                                ($69,505,037.17)
22130011      ($25,495,027.49)          ($119.87)                                                             ($25,495,147.36)
22130012       ($4,008,576.65)           $119.87                                                               ($4,008,456.78)
23200021       ($1,163,379.49)      $1,163,379.49                                                                       $0.00
23200022     ($134,906,593.80) ($1,163,379.49)                                                               ($136,069,973.29)
 310000 ($11,462,598,175.62)         $691,261.00     ($18,283,860.99)      $18,216,740.74 ($624,140.75) ($11,462,598,175.62)
 331000    ($7,681,691,194.36)                         $18,283,860.99 ($18,216,740.74)        ($67,120.25) ($7,681,691,194.36)
 420100    $11,698,735,441.88       ($691,261.00)                                             $691,261.00 $11,698,735,441.88
44500001 ($2,267,797,750.51)                           $93,772,154.03      $67,014,267.62 $16,175,128.32 ($2,090,836,200.54)
44500002 ($1,033,864,255.30)         $624,140.18 ($2,898,141,590.53) $2,676,890,086.84 $43,665,813.54 ($1,210,825,805.27)
 TOTAL ($10,970,723,169.88)          ($66,228.60) ($2,804,369,436.50) $2,743,904,354.46 $60,532,202.86 ($10,970,722,277.66)
  Source: OIG analysis based on 2011 ending balances in IFMS and 2012 beginning balances in Compass.




           12-P-0559                                                                                             22
                                                                                         Appendix F

                      General Ledger Crosswalk Errors
                                                      Compass
         IFMS Description                IFMS          Default        Compass Name/Description
Int Receivable - Not Otherwise           1340         13400002   Interest Receivable Superfund Non-
Classified                                                       Federal
Interest Rec Superfund Non-Fed           134S         13400001   Interest Receivable Federal Superfund
Other Gen Prop, Plant & Equip            1890         17500003   Federal Equipment at EPA
Accrued Funded Annual Leave              22FL          222500    Unfunded FECA Liability, Federal
Advance Collections Fed                  2311         24000011   Liability Dep/Cl Fds Cash Difference
                                                                 Federal
Adv From Non-Fed AG O&M Act              2313         23100023   WCF Advances, Fed Non-EPA
Other Structures & Facilities            1740          173000    Buildings, Improvements, and
                                                                 Renovations
Anticipated Transfers - Prior Year       4180          416000    Anticipated Transfers - Current-Year
Balance                                                          Authority
Total Resources Adjustment               4211          421000    Anticipated Reimbursements and Other
                                                                 Income
SF Spec Acct Rev Coll, Fed               427A          427300    Interest Collected From Treasury
Reduction in C/O - Contra Reim           445D         45900015   Allowances - Anticipated
Category B Apportionment                 4513         45900015   Allowances - Anticipated
Funds Avail for Allot Reimb              4561         45900012   Suballocations - Anticipated
O/R Exp Auth, Reim No Budg Upd           465R         46100020   Allow Iss Non Bud Appr Ck Can
Tax Rev Coll Not Collected               5800          580400    Tax Revenue Collected - Excise
Postage Expense Federal Exc              62FE          671000    Depreciation, Amortization and
                                                                 Depletion
Other Assets, Non Federal                199P          154100    Forfeitd Property Hold For Sale
Capitalization Exp, Non Ex               612N         61000012   Operating Expense Public Exc
Adjustment to Subsidy Expense            6199         61000032   Account Paid Pend Detail Nex
Future Funded Expense Fed N-E            68FN         68000022   Future Funded Expense Pub N-E
 Source: OIG analysis of Agency-provided crosswalk.




 12-P-0559                                                                                          23
                                                                                                    Appendix G

                Effect on Audit of Data Requests Not Received
                                        Date of
                                         initial                                  Potential effect if the OIG does not
  Requested data not received           request         Reason for the data                 receive the data
The details that support the
beginning and ending balances
(vendor, type, vendor number,
billing document, outstanding
billings, dates, amounts, etc.).
Beginning balance trans
code/type, all entries/in period
'00, balance by budget fiscal          12/8/2011
year and treasury symbol. Any                        To determine the           Rely on the accuracy of the beginning
adjustments to the beginning              (and       appropriateness and        balances. We may not be able to render
balances and related support for         weekly      accuracy of those          a clean opinion on the financial
those adjustments.                     thereafter)   adjustments.               statements.
                                                     To review the beginning    Perform audit sampling and audit the
                                                     balances, monthly post     financial statements. We may not be able
                                                     close and year-end audit   to render a clean opinion on the financial
Journal File from Compass              12/8/2011     data.                      statements.
                                                                                Review the transactional details of the
Beginning balance details in                                                    beginning balances to determine if they
accounting period 00 from                                                       beginning balances were adjusted and if
Compass (exactly what migrated                       To determine why the       adjustments were supported and
from IFMS, what documents                            2012 beginning balances    reasonable. We may not be able to
make up the beginning balance,                       do not agree with the      render a clean opinion on the financial
etc.)                                  1/26/2012     2011 ending balances.      statements.
                                                     To Review                  Determine if internal controls are
                                                     reconciliations to         adequate. May not be able to rely on
Reconciliations of GL accounts                       determine if they are      internal controls over the financial
performed                               2/8/2012     timely prepared.           statements.
                                                                                Determine if the ending balances
                                                                                migrated properly to Compass. We may
                                                     To review the              not be able to rely on internal controls or
Compass migration strategy                           reasonableness of the      render a clean opinion on the financial
questions                              2/23/2012     migration strategy.        statements.
Source: OIG requests for data and data received as of March 23, 2012.




       12-P-0559                                                                                                 24
                                                                                   Appendix H

                                      Distribution
Office of the Administrator
Agency Follow-Up Official (the CFO)
Deputy Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Office of Planning, Analysis, and Accountability, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Director, Office of Technology Solutions, Office of the Chief Financial Officer
Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Accountability and Control Staff, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Financial Management, Office of the
       Chief Financial Officer
Audit Follow-Up Coordinator, Office of Financial Services, Office of the Chief Financial Officer




12-P-0559                                                                                     25
